                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Selected Activities of the Office of Energy
Efficiency and Renewable Energy's Advanced
Manufacturing Office




 OAS-RA-14-04                        June 2014
                                 Department of Energy
                                    Washington, DC 20585

                                          June 17, 2014


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Selected Activities of the Office
                         of Energy Efficiency and Renewable Energy's Advanced
                         Manufacturing Office"

BACKGROUND

The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy's
Advanced Manufacturing Office (Program) is committed to researching, developing and
demonstrating new energy-efficient manufacturing processes and material technologies. To
meet its mission, the Program distributed funding through financial assistance awards, contracts
and inter-entity work orders to projects across various sectors of manufacturing. Specifically,
between Fiscal Years 2009 and 2012, the Program funded 261 projects totaling over $450
million, including over $170 million in American Recovery and Reinvestment Act of 2009
(Recovery Act) funding. As of August 2013, approximately $300 million in Department funds
had been spent by award recipients.

Previous Office of Inspector General reviews identified weaknesses in the Department's
management of financial assistance awards. For instance, our audit report on the Department of
Energy's Industrial Carbon Capture and Storage Program Funded by the American Recovery
and Reinvestment Act (OAS-RA-13-15, March 2013), found that Department officials were not
always sufficiently managing financial assistance awards. These problems occurred in part
because the Department had not always provided effective monitoring or oversight of recipient
activities. In light of previously identified concerns and the significant amount of Recovery Act
funding awarded, we initiated this review to determine whether the Department had effectively
and efficiently managed the Program and its award recipients.

RESULTS OF AUDIT

We found that the Department had not always effectively managed the Program awards. In
particular, during our review of 10 projects awarded a total of $107 million, including
approximately $95 million in Recovery Act funds, we discovered that:
    •	 Although specifically required to obtain appropriate supporting documentation, Program
       officials approved and reimbursed approximately $17 million to three recipients without
       reviewing detailed documentation to substantiate costs claimed. In addition, during site
       visits to two additional recipients, we examined a sample of supporting information and
       found that over $16,000 in questionable and/or unallowable costs had been charged to
       the projects.

    •	 Program officials had not maintained records of analyses or documentation supporting
       comprehensive pre-award desk reviews conducted on two of the projects we reviewed.

Unsupported and Unallowable Costs

The Department approved and reimbursed approximately $17 million to three recipients without
reviewing detailed supporting documentation to substantiate all of the costs claimed. To enhance
controls and alleviate risk, the Department placed these three recipients on the "request for
reimbursement method of payment" to allow the determination of the allowability and
reasonableness of costs to a project prior to payment to the awardee. According to Federal
regulations, this method is preferred for For-Profit entities because costs are paid based on
actual, not estimated expenditures. Even though the Program placed these recipients on the
reimbursement method, the terms and conditions for the awards we reviewed only required high-
level summary tables that listed costs claimed by budget categories. Without requesting or
reviewing adequate documentation for project costs, the Department cannot accurately determine
the allowability and reasonableness of costs charged to the Program prior to reimbursement.

This issue is significant because, for one of the recipients previously mentioned, we noted that
independent audits conducted for Calendar Years 2011 and 2012, which were completed in July
2013, identified significant deficiencies in accounting system controls. These deficiencies
increased the risk that unallowable costs could be approved and reimbursed. Furthermore, the
audits found that this recipient had not adequately reviewed and approved certain payroll costs
prior to billing the project.

In addition, two other recipients in our review, charged over $16,000 in questioned and/or
unallowable costs to the project, of which approximately $1,600 was Government share and
$14,400 was recipient cost share. Specifically, in reviewing additional supporting
documentation that had not previously been provided to the Department, we found instances of
questionable travel claims in the amount of $13,000 that exceeded costs or appeared
unreasonable based on Federal Travel Regulations. These costs included business class airfare,
hotel accommodations over Federal per diem rates, and premium rental cars. Additionally, we
noted one instance of two hotel rooms reimbursed for the same night at two different locations
claimed by the same individual. Further, we found an instance in which a subcontractor was
reimbursed almost $3,000 for cancellation fees on a workshop unrelated to the project. As a
result, we questioned over $16,000 in costs claimed under the awards.




                                                2

During the course of our review, the Program conducted a comprehensive review of its grants
management procedures and identified a need to strengthen, centralize and standardize its
invoice review process. According to Program officials, this process is scheduled to be deployed
in late Fiscal Year 2014. Additionally, subsequent to our review, the Department indicated that
it had reviewed the $16,000 in questioned costs previously noted and determined that over
$13,000 was unallowable, of which approximately $1,200 was Government share and the
remaining $11,800 was recipient cost share. Program officials stated that as of May 2014, they
had recouped the identified costs.

Records Maintenance

Our review found that the Program was unable to provide records of comprehensive desk
reviews that, according to award documentation, had been conducted to evaluate two recipients
in our sample. Both of these recipients were investment type entities with the majority of the
project costs being passed through to a subcontractor. The Department, due to unique
circumstances, conducted comprehensive desk reviews to ensure that the Government's interests
were protected. However, when requested, the Program was unable to provide us with any
documentation that would have supported the analyses used in the decision process for both
awards. Even though we were informed that the desk reviews had been performed,
documentation supporting the desk review analyses had not been maintained by the Contract
Specialist in the Department's official record-keeping database, nor was it available in records
retained by the Program when the official retired. Although management did not agree that
documentation supporting the desk review analyses was not maintained by the Contract
Specialist, we found that documents cited by management to support its assertion contained only
the conclusions from such analyses, not support for the actual conduct of the analyses.

It is the Department's policy to require the maintenance of complete and accurate records
documenting activities and decisions of the Department. Further, the Department's Records
Management Handbook requires that officials maintain complete and accurate records that
adequately document the organization, functions, policies, decisions, procedures and essential
transactions of the agency. Without records documenting the analysis or decision process used
in the desk reviews, the Program is unable to demonstrate whether funding the projects was in
the best interest of the taxpayer. During the course of our audit, the Department became aware
of opportunities to enhance its project management processes in the area of project
documentation. In response, the Department issued guidance in August 2013, requesting project
records of analysis and significant decisions be entered into appropriate Department databases.

Performance Monitoring and Oversight

The issues we identified occurred, in part, because the Department had not consistently provided
effective monitoring and oversight of recipient activities. Specifically, at the time of our review,
the Department had not developed criteria or defined a standard level of documentation needed
to ensure an efficient/consistent review of project costs. For example, for seven of the recipients
included in our review that had been placed on the reimbursement method of payment, Program
officials requested varying levels of supporting documentation to substantiate project costs. In



                                                 3

some cases, they received summary spreadsheets listing budget cost categories. According to
one Program official, the extent of backup documentation required to substantiate reimbursement
requests is determined jointly by the Project Officer and Contract Specialist at the onset of each
award. However, these discussions and decisions are not typically documented, and not all
Program officials were available to explain the basis for the amount of documentation requested
for recipients.

Additionally, we found that the lack of documentation on the desk reviews was caused by
weaknesses in the Program's record-keeping practices. Specifically, the Program lacked internal
controls to ensure policies and procedures requiring analysis and significant decisions be
adequately documented and maintained were followed. We have found similar issues in other
Departmental programs. For example, in our report The Department of Energy's Industrial
Carbon Capture and Storage Program Funded by the American Recovery and Reinvestment Act
(OAS-RA-13-15, March 2013), we found that the Carbon Capture Program had not maintained
records related to significant program decisions that could have supported the approval and
rationale used to select projects to receive funding. Due to the unique circumstances of the
awards, we believe the Department's analyses and decision process used in the comprehensive
desk reviews should have been documented and maintained.

To their credit, we noted that various Program officials had implemented other oversight
techniques when managing projects. Specifically, we identified instances in which Program
officials questioned reimbursement requests and obtained explanations from recipients to clarify
amounts claimed. We also found a number of Program officials that rejected payment requests
for reasons such as unapproved items, invoice errors, incorrect rate usages, rounding errors, and
differing dollar figures between the reimbursement requests and provided support. Further, at
least one Program official incorporated financial reviews of purchase order detail into the site
visits. Finally, in certain instances, Program officials obtained additional external audits to
ensure adequate accounting systems were in place at some recipients.

Impact and Path Forward

The lack of financial monitoring of projects placed the Department at a higher than necessary
risk of reimbursing questionable and/or unallowable recipient costs. Funds spent on
questionable and/or unallowable costs may reduce the amount available to complete project
objectives and represent wasted and misused taxpayer dollars. Further, by not documenting
project reviews/evaluations, the Department cannot demonstrate that it made informed decisions,
or that these decisions had not adversely affected project objectives. In light of existing budget
challenges facing the Department, it is critical that the Program ensures that the limited resources
available are used to advance its mission in the most effective and efficient manner possible. Of
the $450 million in funding obligated to projects under the Program, approximately $155
million, or about 34 percent, remains to be spent. Given the significant amount of funding
remaining to be spent, the Department has an opportunity to ensure a successful path forward.




                                                 4

RECOMMENDATIONS

To help achieve the objectives of the Recovery Act and the Program, we recommend that the
Assistant Secretary for Energy Efficiency and Renewable Energy direct Program officials to
ensure that:

    1.	 Newly established criteria and invoice review processes are applied and performed on
        all project costs claimed; and

    2.	 Records of analysis and significant decisions supporting the Program are adequately
        documented and maintained.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that it would take
or had already implemented actions to address them. Specifically, management stated that it had
begun a comprehensive review of its grants management procedures in April 2012. The review
identified a need to strengthen, centralize and standardize the invoice review process. The resulting
central invoice review has established criteria and defined the standard level of documentation
necessary to perform a review of project costs claimed. In addition, management indicated it had
determined the allowability of questioned costs in our report and began the process to recover
unallowable costs from recipients. Subsequently, management informed us that as of May 2014, it
had recouped these costs. Further, to enhance existing project management processes, guidance was
issued which requested that project records of analysis and significant decisions be entered into
appropriate databases and the project file.

AUDITOR COMMENTS

Management's comments and planned corrective actions were responsive to our recommendations.
Management's comments are included in Attachment 2.

Attachments

cc:	 Deputy Secretary
     Chief of Staff




                                                  5

                                                                                     Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy's (Department)
Office of Energy Efficiency and Renewable Energy's Advanced Manufacturing Office (Program)
had effectively and efficiently managed the Program and award recipients.

SCOPE

This audit was performed between March 2013 and June 2014, at the National Energy
Technology Laboratory (NETL) in Pittsburgh, Pennsylvania. Also, the audit team held
teleconferences with Program officials at the Golden Field Office, in Golden, Colorado. In
addition, we conducted site visits to three recipients in Shoreview, Minnesota and Tarrytown,
New York. Our review covered projects funded between Fiscal Years 2009 and 2012. The audit
was conducted under the Office of Inspector General Project Number A13RA022.

METHODOLOGY

To accomplish the objective, we:

    •	 Obtained and reviewed relevant laws and regulations related to implementation of the
       American Recovery and Reinvestment Act of 2009 and the financial assistance award
       administration.

    •	 Reviewed the Funding Opportunity Announcements for the Program, as well as merit
       review information and selection documentation.

    •	 Identified a universe of 261 projects funded between 2009 and 2012 under the Program.
       We judgmentally selected 10 projects for review based on award dollar value, total
       payments made by the Department, and Funding Opportunity Announcements. We also
       selected projects based on funding source, type of award made, and two Department
       field offices overseeing awards. We performed a full file review on the 10 projects in
       our sample including a review of the awards' Strategic Integrated Procurement
       Enterprise System and Vendor Invoice Approval System files to assess level of award
       progress and cost documentation reviewed by Program officials prior to reimbursement.
       Because our samples were not statistical, we could not project the sample results to the
       population of financial transactions. However, after identifying insufficient
       documentation for subcontractor costs in our sample of certain recipients, we determined
       that the lack of documentation was systemic. We also interviewed project managers and
       contract specialists overseeing these projects to determine their roles and responsibilities
       related to monitoring of awards.

    •	 Based on our full file reviews, we selected and conducted site visits to three recipients to
       discuss management of the projects, discuss recipients' policies and procedures for


                                                6

                                                                                  Attachment 1


        tracking project costs, and analyze financial transactions related to the projects. We
        judgmentally selected invoice and other backup documentation to support costs claimed.
        However, because our samples were not statistical, we could not project the sample
        results to the population of financial transactions.

    •	 Conducted interviews with NETL and Golden Field Office officials to discuss

       management of the Program. 


We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and determined that it had established performance measures for the
Program. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. Finally, we conducted an
assessment of computer-processed data relevant to our audit objective and determined the data to
be sufficiently reliable to achieve our audit objective.

Management officials waived an exit conference.




                                               7

                      Attachment 2


MANAGEMENT COMMENTS




         8

     Attachment 2




9

                                         FEEDBACK


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12) 

                                     Department of Energy 

                                    Washington, DC 20585


If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
